Report No. D-2007-083         April 10, 2007




         Transition Expenditures for
           DoD Personnel Security
                Investigations
                 for FY 2005
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of Defense
  Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
  Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy Inspector
  General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703) 604-8932. Ideas and
  requests can also be mailed to:

                           ODIG-AUD (ATTN: Audit Suggestions)
                           Department of Defense Inspector General
                             400 Army Navy Drive (Room 801)
                                 Arlington, VA 22202-4704




Acronyms
DSS                   Defense Security Service
JPAS                  Joint Personnel Adjudication System
MOA                   Memorandum of Agreement
NISP                  National Industrial Security Program
OMB                   Office of Management and Budget
OPM                   Office of Personnel Management
OUSD(C)/CFO           Office of the Under Secretary of Defense (Comptroller)/Chief Financial
                         Officer
PSI                   Personnel Security Investigation
SSN                   Social Security Number
USD(I)                Under Secretary of Defense for Intelligence
                                   INSPECTOR GENERAL
                                  DEPARTMENT OF DEFENSE

                                     400 ARMY NAVY DRIVE

                                ARLINGTON, VIRGINIA 22202-4704





                                                                                  April 10, 2007


MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR INTELLIGENCE
               DIRECTOR, DEFENSE SECURITY SERVICE

SUBJECT:	 Report on Transition Expenditures for DoD Personnel Security Investigations for
          FY 2005 (Report No. D-2007-083)


     Weare providing this report for information and use. We considered management
comments on a draft of this report in preparing the final report .

       Comments on the draft of this report conformed to the requirements of DoD
Directive 7650.3 and left no unresolved issues . Therefore, no additional comments are required.

      We appreciate the courtesies extended to the staff. Questions should be directed to
Ms Jacqueline J. Vos at (703) 428-0919. See Appendix C for the report distribution. The team
members are listed inside the back cover.


                                      By direction of the Deputy Inspector General for Auditing:


                                            /J/~
                                            Paul f -ietto, CPA

                                   Assistant Insp~;~eneral   and Director

                                     Defense Financial Auditing Service

                   Department of Defense Office of Inspector General
Report No. 2007-083                                                              April 10, 2007
   (Project No. D2006-D000FB-0065.000)

                      Transition Expenditures for DoD Personnel
                         Security Investigations for FY 2005

                                     Executive Summary

Who Should Read This Report and Why? Personnel at the Military Components and Defense
agencies who are responsible for requesting, obtaining, and funding personnel security
investigations should read this report. The report discusses impediments to the DoD personnel
security investigation program.

Background. On October 16, 2004, the Deputy Secretary of Defense and the Director of the
Office of Personnel Management signed a Memorandum of Agreement (the Agreement) for
transferring the DoD Personnel Security Investigation functions from the Defense Security
Service to the Office of Personnel Management. On February 20, 2005, the Defense Security
Service transferred the investigation functions along with about 1,300 investigators. As part of
the Agreement, DoD provided a one-time cash payment plus accrued annual leave of about
$41.2 million to the Office of Personnel Management and agreed to pay up to a 25 percent
premium on the DoD rate for security investigations initiated after the transfer. During FY 2005
DoD expended about $355.1 million for personnel security investigations and projected FY 2006
expenditures of more than $600 million.

In August 2005, the Acting Director for the Defense Security Service requested that we
determine whether the expenditures made to the Office of Personnel Management for Personnel
Security Investigation services were in accordance with the Agreement. However, the
Agreement requires a joint audit with the Office of Personnel Management, so we coordinated
with the OPM Office of Inspector General who agreed to assess whether the Office of Personnel
Management conformed to the terms of the Agreement and to review the investigation rate
structure and adjustments charged for services. We are reporting on the execution of DoD
requirements in the Agreement.

Results. The Defense Security Service internal controls were not adequate. We identified a
material internal control weakness in the administration of personnel security investigation
requests. DoD lacks assurance that the invoices it paid for investigations were accurate. In
addition, DoD did not meet all requirements in the Agreement. As a result, DoD’s inability to
reconcile investigation invoices meant DoD could not validate payments of $355.1 million for
FY 2005 investigations or more than $600 million in FY 2006. Strengthening control activities
and monitoring over the payment for personnel security investigations will help ensure that DoD
funds for that purpose are safeguarded. Also, DoD needs to develop a financial plan to provide
for potential OPM losses as agreed to.

Management Comments and Audit Response. The Under Secretary of Defense for
Intelligence concurred with the report and partially concurred with our recommendations. He
commented that funds have been requested through the appropriate budget mechanisms to update
the Joint Personnel Adjudication System, and the Defense Security Service has been designated
to develop a financial plan. The Defense Security Service concurred with two of the
recommendations, nonconcurred with one recommendation, and partially concurred with two of
the recommendations. DSS has prepared a tutorial that instructs DoD Components on
appropriate procedures for processing requests including reviews for duplicate requests, used
software tools to reconcile invoice text files, and begun developing a process for accurate and
timely workload projections as a budget methodology. These actions meet the intent of our
recommendations; therefore, we require no further comments. Management comments are
discussed in the Finding section of the report and the complete text is in the Management
Comments section of the report.

Management Actions. DoD signed an Amendment (the Amendment) to the Memorandum of
Agreement with the Office of Personnel Management on October 17, 2006. The Amendment
reduced the premium on the DoD rate for investigations for a portion of 2006, eliminated the
premium in FY 2007 and all future years (refunding a total of $7.01 million to DoD), and
terminated the indemnity against all OPM losses incurred from the transfer of the personnel
security investigation function. As of January 25, 2007, the Defense Security Service has a
Chief of Staff and the Acting Director was named Director on March 13, 2007. The position for
a permanent Deputy Director also was advertised and a decision is pending. The Defense
Security Service formed a working group with the Office of Personnel Management to resolve
issues concerning the personnel security investigation payment process, developed a written
standard operating procedure for the certification and payment process in August 2006, and
began the process for disseminating guidance to DoD Components to reduce or eliminate the
occurrences of duplicate requests. A complete discussion of management actions is in the
Finding section of the report.




                                               ii
Table of Contents
Executive Summary                                                      i

Background                                                            1

Objectives                                                            2

Review of Internal Controls                                           2

Finding
     DoD Controls over the Personnel Security Investigation Process   3

Appendixes
     A. Scope and Methodology                                         12
     B. Prior Coverage                                                14
     C. Report Distribution                                           15

Management Comments
     Under Secretary of Defense for Intelligence                      17
     Defense Security Service                                         19
Background
    The Defense Security Service (DSS), established in 1972, provides a single, centrally
    directed service within the DoD for conducting personnel security investigations (PSIs).
    PSIs inquire into an individual’s loyalty, character, trustworthiness, reliability, honesty,
    and financial responsibility. DoD adjudicative facilities use PSI results to determine an
    individual’s suitability to enter the armed forces, access classified information, or hold a
    sensitive or trustworthy position within DoD or within a DoD-cleared contract facility.

    Public Law 108-136. Public Law 108-136, “The National Defense Authorization Act for
    Fiscal Year 2004,” November 24, 2003, section 906, authorizes the Secretary of Defense
    to transfer to the Office of Personnel Management (OPM) the PSI functions performed
    by DSS. DSS continues to serve as the Executive Agency for the financing and
    management of PSIs for the National Industrial Security Program (NISP), which
    investigates individuals, including contractor personnel in DoD and other Federal
    agencies.

    Memorandum of Agreement. On October 16, 2004, the Director, OPM, signed an
    Agreement with the Deputy Secretary of Defense to clarify financial terms for the
    transfer of PSI functions. The Agreement states that DoD will:

           •   develop a financial plan to cover any operating loss realized by OPM during a
               3-year period from the start of the transfer of PSI functions in any year (using
               a potential annual loss of $75 million for planning purposes);

           •   pay OPM for losses incurred from the transfer of PSI functions during a
               3-year period from the start of the transfer;

           •   make a one-time cash payment of up to $33.8 million (based on OPM
               estimates that included $15 million to cover estimated startup costs and up to
               $18.8 million to cover costs for information technology equipment, additional
               support, and program management staff expenses);

           •   cover the full cost of accrued annual leave for employees transferred to OPM
               at the time of the transfer and retain responsibility for claims or settlements
               still pending at the point of executing the Agreement; and

           •   distribute OPM investigation charges to DoD Components, accept the Office
               of Management and Budget (OMB) as mediator on unresolved financial issues
               related to the transfer, and develop a joint OPM/DoD personnel security
               improvement plan.

    The Agreement also states that OPM may charge DoD for PSIs at current DoD rates, plus
    annual price adjustments, plus up to a 25 percent premium to offset potential operating
    losses. OPM should report performance and processing cost data for PSIs conducted by
    transferred DSS staff, including estimates of operating gains and losses to date, and
    projected losses for the upcoming quarterly review. The Agreement states that a joint
    OPM/DoD audit team will audit the PSI financial status and determine whether financial
    adjustments are warranted in accordance with the Agreement.



                                              1
     On February 20, 2005, OPM assumed managerial control of the PSI functions and DoD
     began purchasing PSI services from OPM. In FY 2005, DSS processed about
     1.1 million PSI transactions valued at $355.1 million.

     Request for Review. In August 2005, the Acting Director for DSS requested that we
     determine whether the payments made to OPM for PSI services were made in accordance
     with the Memorandum of Agreement (the Agreement). The Agreement requires a joint
     audit with the Office of Personnel Management so we coordinated with the OPM Office
     of Inspector General, who agreed to assess whether OPM conformed to the terms of the
     Agreement and to review the OPM investigation rate structure and adjustments OPM
     charged to DoD for PSIs.

Objectives
     Our overall audit objective was to determine whether expenditures for the transition of
     the PSIs from DSS to OPM met requirements of the Agreement. As required by the
     Agreement, we coordinated a joint audit with OPM. The OPM Office of Inspector
     General agreed to perform an assessment of whether OPM was conforming to the terms
     of the Agreement and to review the OPM rate structure and adjustments charged to DoD
     for PSIs. We are reporting on the execution of the DoD requirements of the Agreement.
     See Appendix A for a discussion of the scope and methodology, and Appendix B for
     prior coverage related to the objectives.

Review of Internal Controls
     We identified material internal control weaknesses for DSS as defined by DoD
     Instruction 5010.40, “Managers’ Internal Control (MIC) Program Procedures” January 4,
     2006. DSS did not have internal controls in place over the PSI payment process to:

        •   ensure that all requirements in the Agreement were met

        •   provide consistent management to establish policies and procedures,

        •   develop adequate budget and projections for future investigation requests, and

        •   upgrade the automated system to track PSI invoices.

     Implementing the recommendations in this report will strengthen control activities and
     monitoring of the DSS PSI payment process and prevent omissions in fulfilling the
     Agreement. A copy of the final report will be provided to the senior official responsible
     for internal controls in DSS and the Office of the Under Secretary of Defense for
     Intelligence.




                                             2
           DoD Controls over the Personnel
           Security Investigation Process
           DoD did not ensure accuracy of OPM invoices before making payment for
           personnel security investigations. In addition, DoD did not develop a financial
           plan to offset potential OPM losses. DSS internal controls over the personnel
           security investigation process were insufficient to ensure all requirements in the
           Agreement were met. And DSS has been handicapped by inconsistent
           management and an inadequate automated PSI invoice tracking system. As a
           result, DoD could not validate $355.1 million invoiced for personnel security
           investigations in FY 2005 and ensure that the projected investigation costs of
           more than $600 million in FY 2006 were accurate.

Payment Guidance
    Invoice Payment Requirements. Public Law 107-300, “Improper Payment Information
    Act,” November 26, 2002, section 2, includes payments that should not have been made
    and payments made for an incorrect amount. Section 3901 of title 31, United States Code
    (31 U.S.C. 3901), states that a proper invoice has substantiating documentation and
    31 U.S.C. 3903 states that payment requests should not be approved unless the
    application for payment includes substantiation of the amount requested.

    DoD Guidance. DoD Financial Management Regulation, Volume 5, Chapter 33,
    “Department Accountable Officials, Certifying Officers and Review Officials,”
    April 2005, states that certifying officers are responsible for certifying a voucher for
    payment and are responsible for the accuracy of facts stated on a voucher and in
    supporting documents and records.

    DoD Directive 5143.01 “Under Secretary of Defense for Intelligence (USD[I]),”
    November 23, 2005, gives the USD(I) authority over the Director, DSS, who reports to
    and receives guidance from USD(I).

OPM Invoice Accuracy
    DoD lacks assurance that OPM invoices for PSIs were accurate. DSS functions as the
    single, centrally-directed service for processing DoD PSI invoices—receiving and
    distributing OPM invoices to DoD Components. Monthly, OPM mails a compact disc
    that contains about 50 separate invoices to DSS for PSI services. Each invoice can
    contain thousands of records for scheduled or completed PSI requests.

    In FY 2005, OPM billed DoD for 1,076,075 records costing $355.1 million. Therefore,
    DoD had a monthly average of 89,673 records for an average of $29.6 million owed.
    Table 1 shows the distribution of FY 2005 PSI invoice costs to DoD Components.




                                              3
                    Table 1. FY 2005 OPM Invoices to DoD by Component
                       Component                Records        Invoice (millions)
                    Army                        321,937             $ 81.9
                    Navy/USMC                   312,233             $ 90.9
                    Air Force                   233,688             $ 79.9
                    NISP                        150,388             $ 80.5
                    Other                        57,829             $ 21.9
                    Total                     1,076,075             $355.1
                    Monthly Average              89,673             $ 29.6

    DSS personnel stated that the supporting documents accompanying OPM invoices were
    unusable. Supporting documents came in electronic text format with investigations data
    that could have several billable events invoiced over several months, and billable events
    that could not be matched to the standard rates that OPM charged DoD. For example, a
    request for a special background investigation may include various types of law
    enforcement inquiries that OPM bills as individual amounts. However, the text file
    received with the invoice does not include identifying information that explains the
    individual charges. Security personnel were unable to assess the accuracy of the data in
    the text file. The number and amounts of the invoices made the determination of
    accuracy difficult. Therefore, DoD had no assurance that the funds expended for PSI
    services were accurate, appropriate, and correctly allocated and that they did not
    duplicate ongoing investigations.

Memorandum of Agreement Requirements
    DoD did not develop a financial plan to cover any operating loss realized by OPM as
    required by the Agreement. Personnel from the Office of the Under Secretary of Defense
    (Comptroller)/Chief Financial Officer (OUSD[C]/CFO), and DSS acknowledged that
    lack of compliance. However, DoD did meet the requirement for transferring funds to
    OPM when they were requested.

    Purpose of the Plan. The Agreement requires that DoD develop a financial plan to
    cover any OPM losses, using $75 million for planning purposes. The financial plan
    would cover any operating losses that OPM realized in any year during the 3-year
    transition period that began on February 20, 2005. OUSD(C)/CFO personnel did not
    develop the financial plan because PSI losses would be considered contingencies and
    DoD has no method to budget for contingencies. OPM has not experienced losses from
    the transition of PSI functions, from February 2005 to September 2005. In fact, OPM
    earned a net income of $1.7 million from the operations for the PSI functions for that
    period. However, the inability of DoD to develop a financial plan for PSI contingencies
    may hinder the ability to cover any future losses incurred by OPM as a result of PSI
    functions in FY 2007 and FY 2008.

    Transferred Amounts. The Agreement required DoD to transfer set amounts to OPM
    that would mitigate startup costs for PSI functions. DoD met this requirement of the

                                            4
     Agreement. DoD transferred to OPM a total of $41.2 million in startup funds to support
     the PSI functions transfer that included $15 million to cover initial estimated startup costs
     and $15.9 million for information technology equipment, additional support and program
     management staff expenses, and any one-time transition expenses. OPM requested and
     received an additional $10.3 million for accrued annual leave for about 1,300 DSS staff
     that transferred from DSS.

Defense Security Service Controls
     DSS controls over its PSI process were insufficient. Inconsistent DSS management has
     resulted in failure to establish policies and procedures for invoice reconciliation and
     invoice payment certification. DSS needs an automated system with which to match
     investigation requests to investigation invoices.

     DSS Management Environment. Inconsistent management hindered development of
     internal controls and created control weaknesses over reconciling, paying, and certifying
     PSI invoices and formulating PSI budget estimates. From October 2005 to June 2006,
     DSS management turnover included three Acting Directors and two Comptrollers. DSS
     also had two successive bill processors.

             Invoice Reconciliation. DSS personnel stated that no written policies and
     procedures exist for invoice reconciliation. DSS personnel converted text files received
     from OPM into spreadsheets broken down by DoD Component. The spreadsheets and
     the invoices were forwarded to the appropriate DoD Component for invoice validation.
     DoD Components recognized that the supporting documents (spreadsheets) were too
     large to reconcile each line item. DSS used Microsoft Excel spreadsheets in an attempt to
     analyze the FY 2005 PSI database. Each spreadsheet holds about 65,000 records;
     however, supporting documents for FY 2005 contained about 1.1 million records with
     monthly invoices averaging 89,000 records. DSS had to segment FY 2005 PSI database
     records into several spreadsheets, which hampered effective analysis of monthly and
     historical data.

     Considering the large volume of PSI activity, a manual invoice reconciliation process
     would be impractical and ineffective for most DoD Components. To effectively analyze
     and approve monthly invoices, Component reviewers needed a software program
     specifically designed to query and analyze large databases. However, there was no such
     tool and there were no policies or procedures for reconciling invoices; therefore, DoD
     Components approved invoices for payment without determining whether they were
     accurate.

            Invoice Payment Process. The PSI invoice payment process is unclear and
     undocumented. DoD relied on the invoice information OPM provided to determine the
     amounts to pay OPM for PSI services. DoD accepted OPM investigation records as the
     primary source to verify OPM PSI charges. DSS continued to certify payments to OPM
     without substantiating the validity of OPM invoices. Although DSS personnel certified
     payments to OPM through the Defense Finance and Accounting Service, DSS personnel




                                               5
         could not provide any documentation authorizing payments to OPM. DSS personnel
         stated that such documents do not exist. The lack of effective DoD oversight of PSI
         invoice payments precludes DoD’s accountability over PSI costs.

                 PSI Invoice Certification. PSI invoices were not properly certified for payment
         by the DoD Components or DSS officials. According to the DoD Financial Management
         Regulation, certifying officers are responsible for certifying a voucher for payment and
         for the accuracy of facts stated on the voucher and in supporting documents and records.
         Certifying officers receive appointments through DD Form 577, “Appointment /
         Termination Record - Authorized Signature.” Although DSS identified four officials
         assigned to certify PSI invoices for monthly payments, DSS had only one certifying
         official with the required DD Form 577 appointment necessary for certifying invoice
         payments. However, the date of appointment for the certifying officer was August 10,
         2005. Therefore, less than 2 months of the FY 2005 invoices were certified by a properly
         appointed certifying official.

                PSI Sample Review. From invoices that DSS certified for payment in FY 2005,
         we selected a judgmental sample of 46 social security numbers (SSNs) with multiple PSI
         requests worth $82,543.

                         Multiple PSI Requests. SSNs can have multiple PSI requests for various
         categories of investigation such as background, criminal, and fingerprints. Of the
         46 SSNs, 30 had duplicate PSI requests for the same type of investigation under the same
         SSN. These duplicates represented $17,709 in unnecessary costs (more than 20 percent
         of costs for the total judgmental sample reviewed). Duplicate PSIs occurred because
         DoD personnel requested investigations without reviewing the DoD Joint Personnel
         Adjudication System (JPAS). Reviewing JPAS would determine whether an SSN had a
         current investigation. Analysis of the 30 sample items with duplicate PSI requests
         revealed that one requesting official was responsible for 4 SSNs with duplicate PSI
         requests costing $6,895. 1 Certifying officials approved payments for PSI invoices
         containing duplicate requests without adequate review.

                        Blank SSNs. An additional judgmental selection of 10 records with blank
         SSNs indicated that OPM lost SSNs while downloading data into its financial system;
         however, the loss of SSNs had no financial impact on DoD. We used data from the OPM
         Personnel Investigation Processing System because JPAS does not contain cost data.

                 PSI Budget Formulation. The Deputy Director for Personnel Security, USD(I),
         indicated that a survey was sent each year to DoD Components with a request to estimate
         future PSI funding requirements. Survey responses from DoD Components did not show
         analysis, supporting data, or other documentation in the estimates. The Deputy Director
         stated that the budget requests from DoD Components were reviewed only for
         reasonableness. However, the Deputy Director stated that DoD Components did not have
         a standard methodology for estimating PSI costs or requests. Therefore, USD(I) did not
         adequately scrutinize projected budgets and workloads submitted by the various DoD
         Components.



1
 Further review of this requesting official’s submissions in FY 2005 showed 32 additional SSNs that contained
duplicate PSI requests costing $52,294. The requesting official’s duplicate PSI requests totaled 36 at a cost of
$59,189.

                                                         6
        DoD Components’ budget requests varied widely in their ability to forecast the
amount of funds that would be needed or the number of potential PSIs requested. For
instance, the Army and NISP projected running out of funds in May 2006 while the Air
Force projected running out of funds in August 2006. The lack of a standard, consistent,
and sound PSI budget request methodology caused a severe financial crisis in May 2006
that resulted in DSS instituting a moratorium on private sector requests for PSIs. The
projected funding shortfalls and dates for running out of funds are shown in Table 2.

                   Table 2: FY 2006 Budget Shortfall Projections
      Major DoD         Budget        Shortfall        Total         Dates for
      Component         (millions)    (millions)     (millions)      Shortfall
      Air Force         $ 101.4       $       8.8     $ 110.2       Late August
      Army              $ 75.0        $ 43.9          $ 118.9       Mid May
      Navy              $ 96.9        $ 21.8          $ 118.7       Late July
      NISP              $ 145.3       $ 90.7          $ 236.0       Early May
      Other             $ 17.3        $       2.5     $ 19.8        Early May
      Total             $ 435.9       $ 167.7         $ 603.6

The total budget shortfall projected for DoD was $167.7 million. For FY 2006, DSS
projected the total budget with shortfall as $603.6 million.

DSS Internal Controls Summation. DSS needs consistent management to develop and
implement policies and procedures for reconciling and certifying PSI invoices. Neither
DSS nor DoD Components effectively reviewed OPM invoices to determine whether
invoice amounts were accurate. We questioned the validity of DoD invoice payments
because of limited reviews for accuracy by DoD Components and certifying officers
without formal written appointments. Developing a budget formulation methodology and
consistently applying the methodology among DoD Components would improve budget
forecasting for needed funds and potential PSI requests. Therefore, USD(I) should
develop written policies and procedures that follow DoD guidance for invoice
reconciliation, certification, and payment. Also, DoD should develop a budget
methodology that would accurately estimate the needed funds and numbers of potential
PSI requests.

PSI Automation. DoD lacks an automated process for matching DoD PSI requests with
OPM PSI invoices. The DoD used JPAS for real-time information regarding clearance,
access, and investigative status. According to the DSS Chief Information Officer, JPAS
is the only DoD automated system that could be modified to reconcile PSI requests to PSI
invoices.

        Data Elements. JPAS lacks key system elements that prevent it from being an
effective control. The DSS Chief Information Officer acknowledged that JPAS does not
have specific edit checks that could prevent duplicate requests to OPM. JPAS data
dictionary lacks cost data such as the standard and actual cost for the requested PSI.
Without edit checks, JPAS data may have errors and conflict with numerous data
interfaces. Without cost data, JPAS has no standard to compare actual PSI costs on


                                          7
     invoices to standard costs from the OPM price list for various types of investigations and
     inquiries. Without edit check data elements, JPAS cannot be used effectively for
     reconciling PSI invoices to PSI requests. OMB Circular A-123, “Management’s
     Responsibility for Internal Controls,” December 21, 2004, states that application control
     should ensure that transactions are valid and complete. Controls should be established at
     an application’s interfaces to verify inputs and outputs, such as edit checks.

             JPAS Upgrade. We discussed the need for providing edit checks with the Acting
     Director of DSS, who indicated that the $22 million development of System X included a
     JPAS upgrade. However, System X remains unfunded. In order to accurately reflect the
     costs associated with requested and completed PSIs, USD(I) should allocate the funds
     needed to update JPAS. In addition, DSS should request that JPAS undergo a complete
     general and application control review to ensure that other requirements are addressed
     prior to its modification.

              Database Analytical Tool. The database analytical tool used by DSS was
     inadequate. Duplicate PSI requests on OPM invoices could be eliminated with better
     analytical tools. DSS used Excel spreadsheet software to analyze the PSI invoices. DSS
     segmented the data into blocks with a maximum capacity of about 65,000 records.
     However, duplicate or unnecessary clearance requests could go undetected because
     duplicate PSIs may be in different blocks of records. Effective analysis requires that all
     available data elements be in one file. We assisted DSS personnel in determining the
     type of database analytical tool that would enable them to better analyze their data. DSS
     management purchased a license for a database analytical tool that eliminated record
     restrictions and allowed DSS the ability to analyze all PSI invoices together.

Impact of Defense Security Service Controls
     The inability to reconcile PSI invoices meant DoD could not validate $355.1 million for
     PSI invoices in FY 2005 or more than $600 million in FY 2006. The high turnover in
     key DSS management personnel greatly increased DoD vulnerability in paying for PSI
     services that were unnecessary or misallocated. Lack of a standard methodology and
     thorough review of workload data for estimating PSI funding resulted in projected budget
     shortfalls totaling $167.7 million in FY 2006. In addition, the moratorium on NISP
     investigations resulted in criticism from Congress, increased contractor costs, decreased
     contractor effectiveness, and embarrassment for the Department. The lack of an adequate
     automated system resulted in DSS paying OPM without verifying whether such payments
     were for services requested.




                                              8
Management Actions
    DSS Comments. DSS has worked to strengthen internal controls over the PSI payment
    process and formed a working group with OPM to resolve issues concerning the process.
    As a result of working group efforts, DSS is in the process of disseminating guidance to
    the DoD Components to reduce or eliminate the occurrences of duplicate requests. On
    October 17, 2006, DoD amended the MOA with OPM. The Amendment required OPM
    to retroactively reduce the premium DoD paid for investigations for a portion of 2006,
    resulting in a refund of $5.01 million to DoD. It also eliminated the premium beginning
    in FY 2007 and for future years. OPM refunded to DoD at the close of FY 2006 an
    additional $2 million in excess of revenue and operating expenses for PSI functions. The
    Amendment terminated the requirement for DoD to cover OPM losses incurred from the
    transfer of PSI functions. Further, DoD and OPM agreed to review DoD IG and OPM IG
    reports on PSIs and to enter into senior level discussions to ensure that:

           •   PSI charges are only for reasonable costs resulting from services requested by
               DoD,

           •   OPM uses a fair and reasonable method to determine the PSI price from the
               cost for investigations,

           •   OPM is costing and executing contracts in a fair and effective manner; and,

           •   OPM has no augmentation of appropriation through charges to DoD.

    As of January 25, 2007, DSS has a Chief of Staff and on March 13, 2007, the Acting
    Director was named Director. The position of Deputy Director has also been advertised
    with a decision pending.

Recommendations, Management Comments, and Audit Response
    1. We recommend that the Under Secretary of Defense for Intelligence:

       a. Allocate funds needed to update the Joint Personnel Adjudication System.

    Management Comments. USD(I) partially concurred with our recommendation and
    agreed that JPAS should be updated, but disagreed that it is a USD(I) responsibility to
    fund an upgrade. USD(I) stated that JPAS is the DoD-wide system of record for
    personnel security information; therefore, funding for the system is a department-wide
    responsibility. Funds have been requested through appropriate budget mechanisms and
    USD(I) will continue to seek solutions to the funding shortfalls.

    Audit Response. USD(I) comments are responsive. The USD(I) effort to seek solutions
    to the funding shortfalls through appropriate budget mechanisms complies with the intent
    of our recommendation.




                                            9
   b. Develop a financial plan as stipulated in the Memorandum of Agreement.

Management Comments. USD(I) partially concurred with our recommendation, stating
that the October 2006 Amendment to the original MOA terminated any obligation to
cover OPM losses incurred from the transfer; therefore, the MOA no longer requires a
financial plan. Acknowledging the need for an overall financial plan for the security
program, USD(I) designated DSS as the entity to develop the financial plan in
coordination with the DoD Components and Security Directorate. The financial plan will
have two components delineating how the department will: (1) pay for PSIs and (2) fund
the implementation of the personnel security improvement plan.

Audit Response. The USD(I) comments are responsive and comply with the intent of
our recommendation.

2. We recommend that the Director at the Defense Security Service:

   a. Develop written policy and procedures on the personnel security investigation
invoice process to include the reconciliation, certification, and payment of the
invoice.

Management Comments. The Acting Director of DSS partially concurred with our
recommendation and stated that DSS developed a written SOP in August 2006 for the
PSI certification and payment process. However, she deferred comment on DSS
reconciling the bills from OPM to the DoD Components because at this time the DoD
Components perform invoice reconciliation. DSS formally appointed three Certifying
Officers for PSI invoices. DSS plans to develop an invoice reconciliation process but
currently receives OPM invoices for PSIs conducted for DoD Components, identifies the
appropriate bill payer, and provides the billing data to that DoD Component for
reconciliation and validation. DSS will work with the USD(I) to facilitate policy changes
that will authorize DSS to develop and monitor a standardized reconciliation process.
DSS continues to work with OPM on necessary changes that improve the monthly billing
data used to review and validate the monthly PSI invoices. Improvements include using
codes that link investigations, rates, and fees; using software to build a database that
tracks the history of PSI submissions by SSN; using SSNs as an edit check to avoid
duplicate billing; and preparing a tutorial that instructs the DoD Components on
appropriate procedures for processing PSI requests. The tutorial instructs requestors to
review JPAS before submitting PSI requests to OPM and stresses the importance of
following OPM case cancellation procedures when PSIs are no longer needed.

Audit Response. DSS comments are responsive. The SOP that DSS developed for the
PSI certification and payment process complies with the intent of our recommendation.

   b. Develop a standard methodology for estimating budget and potential
personnel security investigation requests from the DoD Components.
Management Comments. DSS partially concurred with our recommendation and stated
that a standard methodology for projecting DoD requests for PSIs is a necessary part of
the budgeting process and that DSS will work with USD(I) for a policy change that
would give DSS the authority to develop a budget methodology for all DoD Components.
In the Amendment to the MOA, DoD agreed to immediately undertake development of a
process to provide OPM with annual workload projections, sorted by investigation type,
that are accurate and timely to support the requirements of the Intelligence Reform and

                                       10
Terrorism Prevention Act of 2004. Also, DSS is pursuing additional funding to establish
a Clearance Oversight Office that will validate projections of investigation requirements
by linking position sensitivity levels and funding with specific projections of DoD future
acquisition needs.

Audit Response. DSS comments are responsive and comply with the intent of our
recommendation. Workload projections based on investigation type are a significant part
of the budget estimation process for DoD Components.

   c. Obtain a general and application controls review of the Joint Personnel
Adjudication System.

Management Comments. DSS concurred with our recommendation and stated that it is
partnering with the DoDIG to support the audit field work and resolve any findings for
DoDIG Project No. D2007-D000FB-0064.000, “Audit of Controls and Compliance of the
Joint Personnel Adjudication System” announced on November 29, 2006. In anticipation
of the JPAS audit, DSS conducted a limited self-assessment of JPAS general and
application controls and is in the process of correcting noted deficiencies. The audit is
scheduled to be completed in August 2007.

   d. Modify the Joint Personnel Adjudication System so that it has the ability to:

       (1) Perform one-to-one reconciliation between DoD personnel security
investigation requests and the Office of Personnel Management invoice for the
related personnel security investigation service.

Management Comments. DSS concurred with our recommendation and stated that it
will continue to pursue funding for JPAS enhancement to provide the capability for
invoice reconciliation between DoD requests for PSIs and OPM services. DSS stated that
it will resubmit this funding requirement during the mid year review (second quarter,
FY 2007) as well as in the Program Budget cycle (September 2008 for FYs 2010 through
2015).

      (2) Screen duplicate and unnecessary personnel security investigation
requests and provide audit trails so that trends can be analyzed.

Management Comments. DSS nonconcurred with our recommendation and stated that
JPAS is the vehicle used by DoD security offices to request PSIs, via the OPM Electronic
Questionnaire for Investigations Processing form. However, authority for initiating and
validating PSI requests rests with each requesting DoD Component’s security office.
DSS does use JPAS data to track and analyze trends.

Audit Response. DSS comments are responsive. The tutorial that DSS prepared to
instruct DoD Components on appropriate procedures for processing PSI requests, in
response to Recommendation 2.a., includes instructions on reviewing JPAS before
submitting PSI requests. This complies with the intent of our recommendation.




                                        11
Appendix A. Scope and Methodology
   We reviewed the propriety of the expenditures made to transfer PSI functions from DSS
   to OPM. Before the transfer of its PSI functions to OPM, DSS had about 2,600
   employees in three primary missions: the PSI program, the NISP, and the Security
   Education Training and Awareness Program. We reviewed DoD records and invoices to
   reconcile with supporting records provided by OPM. DoD data contained 1,028,732
   records attributed to 784,442 unique SSNs and OPM data contained 1,076,075 text
   records attributed to 630,176 unique SSNs.

   With the cooperation and coordination of the OPM Inspector General we judgmentally
   selected 66 sample items, with associated costs of $83,046 from OPM’s 1,076,075 text
   records used for DoD PSI billing records. The judgmental sample selection came from
   three different pools. The first pool was 7,242 SSNs valued at $1,856,035 that were
   identified from the 630,176 unique SSNs to test for their potential of duplicate PSIs.
   From the 7,242, we judgmentally selected 46 for review. The second pool was 262 blank
   SSNs that were identified from the 1,076,075 record main file. From the 262 SSNs, we
   selected 10 records for review. The third pool was 222,919 of nonconforming OPM case
   numbers. From the third pool, we judgmentally selected 10 case numbers for review.

   The sample review was conducted at the OPM Federal Investigative Services Division,
   Iron Mountain record facility, Boyers, Pennsylvania. We examined the investigation
   types and the corresponding billing rates for conformity with OPM’s established DoD
   Investigations billing rates and related supporting documents. We held discussions with
   key personnel from OPM’s Federal Investigative Service Division on issues we noted
   during the sample review. Each sample unit was examined jointly by OPM Inspector
   General and DoD Inspector General auditors.

   We interviewed personnel responsible for DoD PSI billing and payment processes, at the
   Army Military Intelligence, Washington, D.C.; the Air Force Central Adjudication
   Facility, Washington, D.C.; and the Naval Criminal Investigative Service, Washington,
   D.C. We also held discussions with officials from the OUSD(C)/CFO, Washington,
   D.C.; the Office of the Under Secretary of Defense for Intelligence, Washington, D.C.;
   the Defense Security Service Headquarters, Alexandria, Virginia; and Office of Personnel
   Management, Washington, D.C.

   We performed this audit from November 2005 through June 2006 in accordance with
   generally accepted government auditing standards.

   Scope Limitation. Our scope was limited because we did not include a comprehensive
   test of management internal controls.

   Use of Computer-Processed Data. We requested and received computer-processed data
   downloads from both the OPM Personnel Investigation Processing System and from DoD
   JPAS for the period October 1, 2004, through September 30, 2005. Both databases
   exceeded 1 million records and contained PSI records for more than 0.5 million SSNs.
   We performed a limited assessment of data integrity by comparing the data received from
   each system. Our previous audit (D-2001-136, “Defense Clearance and Investigations
   Index Database,” June 7, 2001), identified problems with data integrity in the


                                          12
adjudication data system used to populate JPAS. We observed that data integrity remains
an issue in JPAS. Although we did not test the reliability of the computer processed data,
we treated the data as questionable but still usable.

Use of Technical Assistance. DoD Office of Inspector General, Quantitative Methods
Directorate and Data Mining Directorate resources helped us to assess the method of
sampling and analyzing the data downloads from OPM and JPAS. We used Quantitative
Methods Directorate analysts to design a potential method of sampling. We used Data
Mining Directorate ACL (Audit Command Language) software to analyze and compare
computer-processed data downloads from the two systems.

Government Accountability Office High-Risk Area. The Government Accountability
Office has identified several high-risk areas in DoD. This report provides coverage of the
Personnel Security Clearance Program high-risk area.




                                        13
Appendix B. Prior Coverage
    During the last 5 years, the Government Accountability Office (GAO) and the
    Department of Defense Inspector General (DoD IG) have issued nine reports discussing
    personnel security investigations. Unrestricted GAO reports can be accessed over the
    Internet at http://www.gao.gov. Unrestricted DoD IG reports can be accessed at
    http://www.dodig.mil/audit/reports.

GAO
    GAO Report No. GAO-05-842T “Some Progress Has Been Made but Hurdles Remain to
    Overcome the Challenges that Led to GAO’s High-Risk Designation,” June 28, 2005

    GAO Report No. GAO-05-207, “High Risk Series,” January 2005

    GAO Report No. GAO-04-632, “Additional Steps Can Be Taken to Reduce Backlogs
    and Delays in Determining Security Clearance Eligibility for Industry Personnel,”
    May 2004

    GAO Report No. GAO-04-344, “DoD Needs to Overcome Impediments to Eliminating
    Backlog and Determining Its Size,” February 2004

    GAO Report No. GAO-01-465, “More Consistency Needed in Determining Eligibility
    for Top Secret Clearances,” April 2001

DoD IG
    DoD IG Report No. D-2006-077, “DoD Personnel Security Clearance Process at
    Requesting Activities,” April 19, 2006

    DoD IG Report No. D-2001-136, “Defense Clearance and Investigations Index
    Database,” June 7, 2001

    DoD IG Report No D-2001-112, “Acquisition Management of the Joint Personnel
    Adjudication System,” May 5, 2001

    DoD IG Report No. D-2001-065, “DoD Adjudication of Contractor Security Clearances
    Granted by the Defense Security Service,” February 28, 2001




                                          14
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Under Secretary of Defense for Intelligence
   Director, Defense Security Service
Director, Program Analysis and Evaluation

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Non-Defense Federal Organization
Office of Management and Budget
Office of Personnel Management

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services




                                               15
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member (continued)
House Committee on Oversight and Government Reform
House Subcommittee on Government Management, Organization, and Procurement,
  Committee on Oversight and Government Reform
House Subcommittee on National Security and Foreign Affairs,
  Committee on Oversight and Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations, and the
  Census, Committee on Oversight and Government Reform




                                            16
Under Secretary of Defense for Intelligence
Comments




                       17
18
Defense Security Service
Comments




                       19
20
21
22
23
24
25
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the Department of
Defense Office of Inspector General who contributed to the report are listed below.

Paul J. Granetto
Patricia A. Marsh
Michael Perkins
Jacqueline J. Vos
Charles M. Brown
Lily Y. Chen
Luis A. DeLaCantera
Marcia L. Kilby
Auburn M. Parker
Fatuma M. Marjan
Suellen Foth
Alejandra P. Rodriguez
James Hartman
Dharam V. Jain
